BakerHostetler
BakersHostetler LLP

Washington Square, Suite 1100
1050 Connecticut Avenue, N.W.
Washington, DC 20036-5403

T 202.861.1500
F 202.861.1783
www.bakerlaw.com

E. Mark Braden
direct dial: 202.861.1674
mbraden @bakerlaw.com

CERTIFICATE OF SERVICE

I, Efrem Mark Braden, a member of the Bar of the Supreme Court of the United
States, certify that one original with two copies of the Emergency Application for
Stay of Judgment with appendix for Steve Chabot, et al. v. Ohio A. Philip Randolph
Institute et al. will be sent by courier for hand delivery to the Supreme Court of the
United States and, per Supreme Court Rule 29.3, a single copy of the application
with appendix was sent by a third-party commercial carrier for delivery within 3
calendar days and by e-mail to the following parties listed below, this 10th day of
May, 2019:

Freda J. Levenson Benjamin M. Flowers
AMERICAN CIVIL LIBERTIES UNION STATE SOLICITOR OF OHIO

OF OHIO FOUNDATION 30 East Broad Street,
4506 Chester Avenue 17th Floor
Cleveland, OH 44103 Columbus, Ohio 43215
(216) 472-2220 614-466-8980
flevenson@acluohio.org benjamin.flowers@ohioattorneygeneral.gov
Robert Fram Phillip J. Strach
GOLDSTEIN COVINGTON & BURLING OGLETREE, DEAKINS, NASH, SMOAK &
LLP 415 Mission Street, Suite 4500 STEWART, P.C.
San Francisco, CA 94105 4208 Six Forks Road, Suite 1100
(415) 591-6000 Raleigh, NC 27609
rfram@cov.com (919) 787-9700

phil.strach@ogletree.com
Counsel for Plaintiffs
Counsel for Defendants

Atlanta. Chicago Cincinnati Cleveland Columbus  CostaMesa Denver
Houston Los Angeles New York Orlando Philadelphia Seattle Washington, DC
All parties required to be served under Supreme Court Rule 29 have been served.

I further declare under penalty of perjury that the foregoing is true and correct.

This certificate is a day, May 10, 2019.

nO

E. MARK BRADEN

UNITE STATES SUPREME COURT BAR NO. 153028
BAKER & HOSTETLER, LLP

1050 Connecticut Ave., NW

Suite 1100

Washington, DC 20036

(202) 861-1674

mbraden@bakerlaw.com
